GR-90-98-036
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANT TO THE UNION COUNTY SHERIFF'S OFFICE
OREGON
GR-90-98-036
AUGUST 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of one
grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Union County Sheriff's Office (UCSO), Oregon. The UCSO
received a grant of $75,000 to hire one sworn deputy sheriff under the Funding Accelerated
for Smaller Towns (FAST) program. The purpose of the additional deputy sheriff under the
grant program is to enhance community policing efforts. 
In brief, our audit determined that the UCSO violated the following grant conditions:


- The UCSO did not have a plan to retain the grant funded position.
- The UCSO generally was not in compliance with grant reporting requirements. The UCSO
    did not submit the Annual Department Report or Officer Progress Report for 1997. The
    Department Initial Report overstated the number of sworn officers and was not submitted
    timely. Three of the 13 required Financial Status Reports (FSRs) were not submitted and 5
    FSRs were not submitted timely. The requests for reimbursement could not be reconciled to
    the associated FSRs. Requests for reimbursement using the Phone Activated Paperless
    Request System (PAPRS) were generally not documented. The amounts reported and requested
    as reimbursement for the grant were not based on the required actual cost data.


 
#####